OFFICE OF THE
SECRETARY
Top Management
Challenges Facing the
Department of Commerce




FINAL REPORT NO. OIG-13-003
NOVEMBER 9, 2012



U.S. Department of Commerce
Office of Inspector General
Office of Audit and Evaluation

FOR PUBLIC RELEASE
                                                             UNITED STATES DEPARTMENT OF COMMERCE
                                                             Th e Inspector Gener al
                                                             Washington , D.C. 20230




November 9, 2012

MEMORANDUM TO THE ACTING SECRETARY


                      1'~j~                             

FROM:                 Todd   J. Zinser
SUBJECT:              Top Management Challenges Facing the Department of Commerce
                      in Fiscal Year 2013

Enclosed is our final report on the Department of Commerce's top management challenges for
fiscal year (FY) 2013. The Department plays a pivotal role in implementing the President's
initiatives for economic recovery and job creation and, like other federal agencies, faces
significant financial uncertainties in the upcoming year. The report identifies what we consider,
from our oversight perspective, to be the most significant management and performance
challenges facing the Department.

The five top challenges we reported last year have been updated for FY 20 13, to reflect
progress made as well as current events.

• 	 Stimulate economic growth in key industries, increase exports, and enhance
    stewardship of marine fisheries. The Department has engaged in multiple government­
   wide initiatives to implement the President's priorities. Successful implementation of these
   initiatives could have a profound impact on the nation's economy; however, it requires
   focused attention by senior management, close coordination with the private sector and
   other federal agencies, and sustained congressional support.

• 	 Increase oversight of resources entrusted by the public and invest for long-term
    benefits. In an era of constrained budgets, there is a greater risk that management will take
   shortcuts, loosen internal controls, and deemphasize oversight, in order to devote
   resources to other requirements. Recent concerns over conference spending and
   unauthorized reprogramming of funds have highlighted the need for more effective
   oversight. Also, several planned modernization efforts, including redesign of the 2020
   decennial, could provide significant long-term benefits but require increased management
   attention.

• 	 Strengthen security and investments in information technology. Recent cyberattacks on
   bureau systems confirm the urgent need to fix the Department's persistent security
   weaknesses. While we support senior management's recent actions to strengthen the
   departmental Chief Information Officer's governance, it is too early to judge their
   effectiveness.
• 	 Implement framework for acquisition project management and improve contracts
    oversight. The Department has recently issued an Acquisition Project Management
      Framework/Guidebook in response to a special study mandated by former secretary Locke.
      The new guidance provides more comprehensive coverage of acquisition life-cycle activities
      and, if implemented consistently, should help mitigate risks of cost overruns and schedule
      delays. Incorporating the new framework into the Department's acquisition policy and
      exercising relentless departmental oversight will be critical to the implementation's success.

• 	 Reduce risks of cost overruns, schedule delays, and coverage gaps for NOAA's
    satellite programs. Satellite programs remain the largest investment in the Department,
    comprising nearly 20 percent of the Commerce budget. Preventing significant cost overruns
    and minimizing the impact of satellite coverage gaps will continue to require top-level
    management attention.

Over the past several years, the Department has experienced many problems-such as
inappropriate acquisition and contracting practices, improper accounting of millions of dollars in
reimbursable agreement services, and unjustified use of forfeited assets-due to lapsed internal
controls. Recent incidents involving unauthorized reprogramming of funds and cyberattacks on
bureau systems are the latest in a series of wake-up calls. To its credit, Department top-level
management has issued directives requiring immediate and across-the-board corrective actions
when becoming aware of these deficiencies. The Offices of the Chief Financial Officer and Chief
Information Officer also took actions to strengthen Department oversight and promulgate
consistent practices among bureaus. Commerce leadership must continue showing the way
forward to establish an accountability culture with increased transparency, readily available
support, and independent validation. This is perhaps the Department's biggest challenge of all.

We remain committed to keeping the Department's decision makers informed of long-standing,
as well as emerging, problems identified through our audits and investigations, so that timely
corrective actions can be taken. This final report and the Department's response to it (which
appears as an appendix) will be included in the Department's Performance and Accountability
Report, as required by law. 1

We appreciate the cooperation received from the Department, and we look forward to
working with you and the Secretarial Officers in the coming months. If you have any questions
concerning this report, please contact me at (202) 482-4661.

cc: 	 Cameron Kerry, General Counsel
      Scott Quehl, Chief Financial Officer and Assistant Secretary for Administration
      Simon Szykman, Chief Information Officer
      Bruce Andrews, Chief of Staff to the Secretary
      Justin Ehrenwerth, Chief of Staff to the Deputy Secretary
      Ellen Herbst, Senior Advisor to the Deputy Secretary
      Operating Unit Heads
      Operating Unit Audit Liaisons


1
    31 u.s.c. §3516(d).
U.S. DEPARTMENT OF COMMERCE                                                                                                         OFFICE OF INSPECTOR GENERAL


Contents

Challenge 1: Stimulate Economic Growth in Key Industries, Increase Exports, and Enhance

             Stewardship of Marine Fisheries ............................................................................................................ 1


    Stimulate Economic Growth in Manufacturing, Intellectual Property, and Wireless Industries ................ 1


    Promote and Regulate Exports.................................................................................................................................. 4


    Protect and Promote Marine Fisheries .................................................................................................................... 6


Challenge 2: Increase Oversight of Resources Entrusted by the Public and Invest for Long-Term

             Benefits......................................................................................................................................................... 8


    Increase Internal Controls and Oversight of Departmental Operations Under a Constrained Budget . 8


    Invest for Efficiencies and Long-Term Benefits .................................................................................................... 11


    Implement Bold Design Changes to Contain 2020 Decennial Costs While Maintaining Enumeration

    Quality ........................................................................................................................................................................... 12


Challenge 3: Strengthen Security and Investments in Information Technology ............................................... 15


    Continue Improving Commerce’s IT Security Posture by Addressing Persistent Security


    Weaknesses .................................................................................................................................................................. 15


    Develop Resilient Incident Response and Recovery Capabilities with Increased Monitoring of

    Internet Traffic ............................................................................................................................................................. 17


    Manage Commerce’s IT Portfolio with Enhanced Governance Structure .................................................... 17


    Strengthen Oversight of IT Investments ............................................................................................................... 18


Challenge 4: Implement Framework for Acquisition Project Management and Improve Contracts

            Oversight .................................................................................................................................................... 20


    Implement the Planned Framework for Acquisition Project Management ................................................... 21


    Oversee High-Risk Contracts .................................................................................................................................. 22


    Maintain an Acquisition Workforce That Holds Bureau Officials Accountable .......................................... 23


    Implement an Effective Suspension and Debarment Program.......................................................................... 24


Challenge 5: Reduce Risks of Cost Overruns, Schedule Delays, and Coverage Gaps for NOAA’s


             Satellite Programs .................................................................................................................................... 25


    Communicate with Stakeholders to Define JPSS Capabilities, Schedule, and Cost Baselines .................. 25


    Ensure Adequate Leadership and Governance Structure over JPSS Development .................................... 27


    Develop a Plan to Support NOAA Weather Forecasting Capabilities During Coverage Gaps .............. 28


    Reduce Program Risks Associated with GOES-R Development ..................................................................... 29


Acronym List .................................................................................................................................................................... 31


Appendix A: Related OIG Publications ...................................................................................................................... 33


Appendix B: Comparison Between FY 2012 and FY 2013 Challenges ............................................................... 36

Appendix C: Management Response to OIG Draft Report .................................................................................. 37





FINAL REPORT NO. OIG-13-003


    U.S. DEPARTMENT OF COMMERCE                                               OFFICE OF INSPECTOR GENERAL



Challenge 1:
Stimulate Economic Growth in Key Industries, Increase Exports, and Enhance
Stewardship of Marine Fisheries
The Department is at the center of the federal government’s efforts to stimulate economic and
job growth in key industries and promote exports, while at the same time regulating exports
and maintaining the delicate balance between promoting and regulating the commercial use of
marine fisheries. These efforts require the Department to work effectively with interagency
partners and the private sector as well as to marshal and integrate Commerce resources. We
have identified three areas for management attention:

•    Stimulate economic growth in manufacturing, intellectual property, and wireless industries

•    Promote and regulate exports

•    Protect and promote marine fisheries

Stimulate Economic Growth in Manufacturing, Intellectual Property, and Wireless
Industries

In early FY 2011, the Department laid out its vision to support manufacturing jobs in America
by implementing the President’s Advanced Manufacturing Partnership—a nationwide effort that
brings together industry, universities, and the federal government to invest in the emerging
technologies and strengthen intellectual property protection. Further, to support the explosive
growth in wireless industries and foster job creation, the President has tasked the Department
to make more spectrum available for commercial use. Successful implementation of these
initiatives could have a profound impact on the nation’s economy; however, it will require
focused attention by senior management, close coordination with the private sector and other
federal agencies, and sustained congressional support.

Support Job Insourcing and Manufacturing Initiatives

Recent reports 2 emphasize the role of manufacturing in creating high‐paying jobs, providing U.S.
exports, and spurring innovation. The President’s Council of Advisors on Science and
Technology’s July 2012 report cites three keys to strengthening U.S. manufacturing: innovation,
a skilled workforce, and a business climate that “spurs investment and fosters partnerships
between government, academia, and industry” through the development of policies in the areas
of tax, regulation, trade, and energy. Many offices, task forces, and councils are involved with


2
 U.S. Department of Commerce, in consultation with the National Economic Council, January 2012. The
Competitiveness and Innovative Capacity of the United States.
http://www.commerce.gov/sites/default/files/documents/2012/january/competes_010511_0.pdf; President’s
Council of Advisors on Science and Technology, July 2012. Report to the President on Capturing Domestic
Competitive Advantage in Advanced Manufacturing. Washington, D.C.: Executive Office of the President.


FINAL REPORT NO. OIG-13-003                                                                               1
U.S. DEPARTMENT OF COMMERCE                                                    OFFICE OF INSPECTOR GENERAL

 Figure 1. Sample of Groups Focused on 	                     studying and establishing manufacturing
 Manufacturing                                               initiatives. A sample of these groups is
                                                             presented in figure 1.

                                                             The two dark circles represent recent
                         White House                         initiatives led by the Department of
                           Office of
                         Manufacturing                       Commerce. Last year, in response to a
                         Policy (2011)
                                                             requirement in its FY 2012 appropriation,
        Advanced
                                               National
                                             Science and     the Department established the Repatriation
      Manufacturing                          Technology
       Technology                           Council (1993)   Task Force—chaired by a representative of
        Consortia                           Committee on
        (FY 2013)                            Technology      the Secretary’s Office of Policy and Strategic
                                                (2011)
                                                             Planning and including officials from the
                      Groups Focusing
                            on                               International Trade Administration, the
                       Manufacturing                         Economic Development Administration, the
                                              President's    Minority Business Development Agency, and
                                              Council of
       Repatriation
        Task Force
                                             Advisors on     the National Institute of Standards and
                                             Science and
         (FY 2012)                           Technology      Technology—and issued a report that
                                                (2009)
                              The
                                                             identified incentives to repatriate jobs that
                         Manufacturing
                            Council                          had moved abroad back to America (job
                           Advisory
                          Committee                          insourcing).
                            (2004)

                                                  A second departmental program, the


  Source: OIG analysis of departmental data

     Advanced Manufacturing Technology
                                                  Consortia (AMTech) program, is supported
in NIST’s FY 2013 budget. AMTech will provide cost-shared funding to consortia focused on
developing advanced technologies to spur manufacturing in the United States. In addition, the
President’s FY 2013 budget proposed $1 billion of mandatory spending to establish a National
Network for Manufacturing Innovation grants program—which requires collaboration among
the Department of Commerce, Defense, Energy, and the National Science Foundation. Since
this program requires congressional authorization, the administration needs to work with
Congress to develop a legislative solution.

In conclusion, while the goal is clear—support job creation by bringing manufacturing jobs back
to the United States—the departmental challenge is to implement new initiatives with
coordinated policy guidance while avoiding duplicative efforts with its partners.
Reduce the Patent Backlog, Improve Processing Times, and Effectively Implement Patent Reform

The U.S. Patent and Trademark Office (USPTO) fosters innovation and protects inventors’
intellectual property rights by registering trademarks and granting patents, which support
$5 trillion of the U.S. economy. Long waits for application decisions could adversely affect
innovation, economic development, and job growth, inhibiting U.S. companies from exporting
until they procure the appropriate patents for their products.

•		 Over the past decade, the patent backlog has almost doubled, and the completion of patent
    reviews takes almost 3 years. While USPTO has reduced the backlog from more than



FINAL REPORT NO. OIG-13-003                                                                               2
U.S. DEPARTMENT OF COMMERCE                                                     OFFICE OF INSPECTOR GENERAL

    700,000 in FY 2010, it remains above 600,000 at the end of FY 2012. 3 Initially, the Under
    Secretary of Commerce for Intellectual Property set forth the goals of reducing the backlog
    of applications awaiting examiner action to a 10-month inventory (approximately 350,000
    applications 4) through decreasing the total processing time for patent applications to 10
    months for the first office action by FY 2014 and 20 months total by FY 2015. USPTO later
    postponed these target dates to FY 2015 and FY 2016, and again to FY 2016 and FY 2017. 5
    To reduce the long waits for patent application decisions, it is imperative that USPTO
    maintain its focus and increase its efforts to address these challenges.

•		 USPTO also has the challenge of reducing a second backlog: ex parte appeals for rejected
    patent applications. As the number of patent examiners has grown, the number of new ex
    parte appeals has grown significantly. Although it is difficult to estimate the exact increase in
    the number of new appeals before FY 2010 because of inaccuracies in the appeal data, new
    ex parte appeals have averaged nearly 12,800 between FY 2010 and FY 2012. The time it
    takes an appellant to receive a decision on an ex parte appeal has doubled in the past 2
    years. Although USPTO hired additional judges in FY 2012 and enhanced their performance
    benchmarks, continued management attention will be needed. 6

In addition, USPTO faces new administrative
and operational challenges in implementing the              The James Madison Building at USPTO
Leahy-Smith America Invents Act (Pub. L. No.                Headquarters
112-29). This act, signed into law in September
2011, contains many fundamental changes to
patent laws and USPTO practices, such as
moving the United States to a “first inventor-to-
file” system from a “first-to-invent” system.
These significant changes will require USPTO to
issue new regulations. USPTO has successfully
implemented new rules scheduled for
September 2012 implementation and is
addressing public rulemaking requirements to                  Source: OIG
implement provisions scheduled to take effect
next March. Significant planning, outreach, and
communication with stakeholders will be
                                                            Source: OIG
needed to implement these fundamental
changes.


3
  Current indicators on patent pendency and quality are available on USPTO’s Patent Dashboard:


http://www.uspto.gov/dashboards/patents/main.dashxml.


4
  The exact number of applications that would comprise a 10 month inventory will vary based on the size of the


patent examiner corps.


5
  Sources for USPTO target dates for decreasing patent application processing time: USPTO FYs 2010–2015 

strategic plan (FYs 2014 and 2015), FY 2013 President’s budget request (FYs 2015 and 2016), and USPTO’s October


2012 proposal (FYs 2016 and 2017).


6
  U.S. Department of Commerce Office of Inspector General, August 2012. USPTO’s Other Backlog: Past Problems


and Risks Ahead for the Board of Patent Appeals, OIG-12-032-A. Washington, D.C.: Department of Commerce OIG.




FINAL REPORT NO. OIG-13-003                                                                                     3
U.S. DEPARTMENT OF COMMERCE                                                      OFFICE OF INSPECTOR GENERAL

Strengthen Spectrum Management and Public Safety

Radio frequency spectrum provides an array of wireless communications services critical to the
US economy and supports a variety of government functions. 7 In June 2010, the President
requested that 500 MHz of spectrum be freed up for commercial sale. The National
Telecommunications and Information Administration (NTIA) announced in March 2012, that
the federal government intends to repurpose 95 MHz of prime spectrum for commercial use, if
certain challenges are met. However, the $18 billion price tag to relocate existing federal users
could make this cost prohibitive. A July 2012 report by the President’s Council of Advisors on
Science and Technology recommended that up to 1000 MHz of federal spectrum be made
available for a “shared use spectrum superhighway,” 8 between federal agencies and commercial
providers. Recent technology advances make the shared-use architecture feasible in the near
future; however, many challenges such as lack of incentive for commercial providers to bid for
shared spectrum, revenue generation, and rights of use issues must be addressed to make this
effort a possibility. A strong partnership between the federal government (NTIA and FCC) and
commercial providers will be needed to make this program a reality.

On February 22, 2012, the President signed the Middle Class Tax Relief and Job Creation Act of
2012, which assigned the D-Block spectrum and provided $7 billion to NTIA to establish an
interoperable nationwide Public Safety Broadband Network (PSBN). NTIA is required to
establish an independent authority called First Responder Network Authority (FirstNet) to be
the holder of the existing public safety spectrum and be responsible for the establishment and
deployment of the PSBN. It is important for NTIA to take into consideration the lessons
learned from earlier public safety network efforts when establishing FirstNet, such as
establishing local/state governance structures in compressed timeframes.

Promote and Regulate Exports

The Department plays a critical role in the success of government-wide initiatives to promote
U.S. exports and ensure an effective export control system—approximately 12 percent
($990 million) of its FY 2013 budget request is dedicated to funding international programs and
activities.

Appropriately Allocate Resources and Increase Collaboration to Support the National Export Initiative

The Department’s International Trade Administration (ITA) plays a leading role in supporting
the National Export Initiative (NEI), which was formalized by executive order in March 2010.
To support NEI, the Department proposed in its FY 2013 budget a reorganization of ITA to
eliminate overlapping functions and streamline operations to enhance foreign market access and
U.S. industry competitiveness. Also, in FY 2012, its U.S. and Foreign Commercial Service unit
began shifting resources away from lower-priority markets to higher-priority markets, in
accordance with a congressionally approved plan. According to ITA, 14 offices have been

7
 U.S. Government Accountability Office, April 2011. Spectrum Management, Washington, D.C.: GAO, 1
8
 President’s Council of Advisors on Science and Technology, July 2012. Realizing the Full Potential of Government-
Held Spectrum to Spur Economic Growth. Washington, D.C.: President’s Council of Advisors on Science and
Technology, 11.


FINAL REPORT NO. OIG-13-003                                                                                      4
U.S. DEPARTMENT OF COMMERCE                                                    OFFICE OF INSPECTOR GENERAL

closed, and 2 more will remain open only
through FY 2014, pending State
Department reviews to close them. To
make this successful, the Department must
continue to strategically reorganize its
personnel and resources while providing
seamless assistance to the public.

A secretarial-level body called the Export Promotion Cabinet is charged with implementing
trade-related activities in coordination with the Trade Promotion Coordinating Committee, 9
chaired by the Secretary. The Department plays an instrumental role in carrying out these
activities with external partners. As of December 2011, the value of exports had increased 33
percent in the 2 years since 2009, appearing to be on track to meet the NEI’s target of doubling
U.S. exports by 2014. However, U.S. export growth for the first 6 months of 2012 was only
6 percent rather than the 15 percent a year necessary to reach the doubling target. The
Department reports it has responded to these economic conditions by ramping up its trade
advocacy and export promotion efforts, as well as aggressively investigating unfair trade
practices affecting U.S. exports or imports into the U.S. market. In addition, we have identified
opportunities for ITA to improve training for trade specialists on enhancing collaboration and
improving sharing with partner agencies. 10

Combat Unfair Trade Practices and Continue Implementing the Export Control Reform Initiative

While trade promotion is an essential part of its mission, the Department must also maintain
strong trade enforcement and export control programs, so that U.S. companies can thrive in
the global marketplace. These key functions are carried out by both ITA and the Bureau of
Industry and Security (BIS). Long-term, sustainable U.S. economic growth depends on the
effective enforcement of trade agreements and export controls. Recently, for example, the
Import Administration, another ITA business unit, issued a final determination that Chinese
manufacturers sold at less than fair value (i.e., “dumped”) solar panels in the United States and
that the manufacturers received trade-distorting government subsidies. The Import
Administration also issued a preliminary determination this summer that Chinese manufacturers
dumped wind turbines in the U.S. market as well. These kinds of decisions are necessary to
level the playing field for U.S. companies. In February 2012, the President signed Executive
Order13601, creating a new Interagency Trade Enforcement Center within the Office of the
U.S. Trade Representative, co-led by the Department of Commerce. This center seeks to
efficiently leverage existing federal government resources, including those within ITA, in
challenging unfair trade practices and foreign trade barriers by trade partners. ITA reports it
has been dedicating staff and resources to the new enforcement center since its inception in
February 2012. ITA’s FY 2013 budget request also contains dedicated staff and resources to
support this center.

9
  The TPCC was established in 1993 by Executive Order 12870 under the authority of the Export Enhancement Act


of 1992 to coordinate governmental efforts to promote U.S. exports.


10
   U.S. Department of Commerce Office of Inspector General, September 2012. U.S. Export Assistance Centers


Could Improve Their Delivery of Client Services and Cost Recovery Efforts [Draft report]. Washington, D.C.:


Department of Commerce OIG.




FINAL REPORT NO. OIG-13-003                                                                                   5
U.S. DEPARTMENT OF COMMERCE                                                      OFFICE OF INSPECTOR GENERAL

The task of administering and enforcing dual-use export controls presently falls on BIS. In April
2010, the Administration proposed the Export Control Reform Initiative to streamline the
country’s export control system and facilitate U.S. export of high-tech goods while protecting
U.S. national security interests. Over the past year, BIS has worked with its interagency
partners to review the munitions and dual-use lists to assess whether changes to controls on
certain products are warranted. Also in response to Executive Order 13558, BIS, along with
other federal agencies, shall provide resources for a new export enforcement coordination
center to collect and share information to help prosecute and deter export control violations.
Commerce must ensure that it continues to support these important programs and initiatives
as the effort to reorganize the Department’s and the federal government’s trade promotion and
enforcement functions continues.

Protect and Promote Marine Fisheries

For several years, we have reported about NOAA’s challenge in balancing two competing
interests: promoting commercial and recreational fishing as vital elements of our national
economy and preserving populations of fish and other marine life. 11 In recent years, members of
the fishing industry and elected officials from the New England region have repeatedly
questioned certain fishery regulations and whether NOAA has abandoned a core mission to
develop the commercial fishing industry and increase industry participation.

An April 2011 independent review of the New England fishery management process 12 suggested
many ways to strengthen fishery management rulemaking processes and specifically
recommended increased “collection and use of socioeconomic data in fishery management
plans in order to make socioeconomic analysis a more visible and meaningful part of the
process.” This type of analysis includes understanding the impact that fisheries management has
on local economies.

As we noted last year, the Department submitted its Plan for Retrospective Analysis of Existing
Rules in August 2011, 13 in response to Executive Order 13563, Improving Regulation and
Regulatory Review. 14 In August 2012, the Department’s General Counsel informed us that the
Department had convened a “regulatory cost–benefit working group” with representatives
from USPTO, BIS, and NOAA, since these bureaus engage in most of the Department’s
rulemaking activity. As a result of these working group meetings, the General Counsel reported
that economists and social scientists from the National Marine Fisheries Service have engaged in
long-term research to assess the U.S. public’s willingness to pay the costs associated with
conservation of protected species and marine protected areas. In its rulemaking, the


11
   The Marine Mammal Protection Act of 1972 and the Endangered Species Act of 1973 gave NOAA fisheries


responsibility for preventing the extinction of marine fish and other species. The Magnuson-Stevens Fishery


Conservation and Management Act of 1976 made the NOAA fisheries the primary federal agency for managing 

marine fisheries and established a regional fishery management system to help the agency carry out its mission.


12
   Preston Pate and SRA-Touchstone Consulting Group, April 2011. A Review of the New England Fishery


Management Process. Washington, D.C.: Touchstone Consulting Group.


13
   U.S. Department of Commerce, August 2011. Plan for Retrospective Analysis of Existing Rules. Washington, D.C.:


Department of Commerce.


14
   Exec. Order No. 13563, 76 Fed. Reg. 3821 (Jan. 21, 2011).




FINAL REPORT NO. OIG-13-003                                                                                       6
U.S. DEPARTMENT OF COMMERCE                                        OFFICE OF INSPECTOR GENERAL

Department and NOAA will continue to be challenged in balancing the competing interests of
promoting fishing and preserving populations of fish and other marine life.

We are currently reviewing NOAA’s controls and processes surrounding fisheries rulemaking
as the first phase of our assessment of transparency and the role of fishery management
councils in rulemaking. An effective regulatory environment requires a fair and transparent
rulemaking process. Our review will consider the interactions among federal officials, fishing
industry members, and nongovernment organizations in the development of fishing regulations.




FINAL REPORT NO. OIG-13-003                                                                      7
U.S. DEPARTMENT OF COMMERCE                                          OFFICE OF INSPECTOR GENERAL


Challenge 2:
Increase Oversight of Resources Entrusted by the Public and Invest for Long-
Term Benefits
The Joint Select Committee on Deficit Reduction was tasked with seeking $1.5 trillion in
government-wide savings over the next 10 years. The Committee did not agree on spending
reductions, resulting in a potential sequestration that will trigger across-the-board budget cuts
beginning in January 2013. Commerce programs will be deeply affected. As the Department
prepares for this extended period of tighter budgets and decreased spending, it is more
important than ever to understand the risks associated with making trade-offs in allocating
resources between the implementation of programs and the oversight of those programs.

Also, after experiencing significant cost increases in the last decennial (from $8.2 billion to
$12.8 billion between 2000 and 2010 decennials), the Census Bureau—a departmental
component—has vowed to contain cost of the 2020 decennial by making critical design
decisions by the end of FY 2014. However, it has already encountered significant challenges in
achieving this goal. While the nation is facing significant financial hardship, the Department and
Census Bureau simply cannot afford to repeat the cost growth experienced over prior
decennials. We have identified three areas for management attention during a period of funding
uncertainty:

•		 Increase internal controls and oversight of departmental operations under a constrained
    budget

•		 Invest for efficiencies and long-term benefits

•		 Implement bold design changes to contain 2020 decennial costs while maintaining
    enumeration quality

Increase Internal Controls and Oversight of Departmental Operations Under a
Constrained Budget

Since FY 1999, the Department has received unqualified audit opinions on its financial
statements. While this is a testimony of the health of departmental financial reporting systems,
it is not an adequate benchmark for internal controls and management oversight of day-to-day
operations, especially in today’s constrained budget environment. In an era of constrained
budgets, there is a greater risk that management will take shortcuts, loosen internal controls,
and deemphasize oversight, in order to devote resources to other requirements.




FINAL REPORT NO. OIG-13-003                                                                         8
U.S. DEPARTMENT OF COMMERCE                                                 OFFICE OF INSPECTOR GENERAL

                                            While management has increased departmental-level
                                            oversight in recent years, such as reviewing high-risk IT
                                            investments (challenge 3) and reducing use of high-risk
                                            contracts (challenge 4), more needs to be done. Recent
                                            concerns over conference spending and unauthorized
                                            reprogramming of funds have highlighted the importance
                                            of strong internal controls and the continued need for
                                            effective oversight.

                                            National Weather Service Reprogramming

                                           In June 2012, the Appropriations Subcommittee
                                           approved the Department’s $35.6 million
                                           reprogramming request to support NOAA National
                                           Weather Service (NWS) operations. An internal inquiry
                                           report prepared by the Department highlighted
                                    mismanagement of budgetary resources and manipulation of
     Source: Office of Management
     and Budget

                   accounting records deeply embedded in NWS. This highlights
                                    the need for increased oversight and transparency.



To its credit, the Department has issued directives requiring immediate and across-the-board
corrective actions and expanded management’s review of internal controls (per OMB Circular
A-123 15) in response to this incident. However, the 6-month-long investigation of this incident
and subsequent development/implementation of corrective actions have diverted management
attention/resources away from other critical functions. To get ahead of the curve, departmental
management needs to instill an accountability culture enriched with increased transparency,
readily available support, and independent validation.

Ethical Violations and Concerns of Mismanagement

Loosened internal controls and relaxed oversight can increase the misuse of federal funds and
lessen public confidence in the government. The following investigative case examples
underscore the need for stronger controls and more vigilant oversight to prevent fraud, waste,
and abuse within the Department and among its grant recipients and contractors:

•		 Former executive directors of a commission that received a NOAA grant misused $575,000
    in grant funds and were indicted—and plead guilty—to charges of theft, bribery, and wire
    fraud.

•		 A NIST grantee diverted more than $100,000 from a $2 million NIST grant to a related
    company for non-grant-related expenses.

•		 Several recipients of Commerce funds committed price fixing, used defective merchandise,
    conducted money laundering, and made false statements.

15
  Office of Management and Budget, December 21, 2004. Management’s Responsibility for Internal Control, OMB
Circular A-123. Washington, D.C.: OMB.


FINAL REPORT NO. OIG-13-003                                                                               9
U.S. DEPARTMENT OF COMMERCE                                          OFFICE OF INSPECTOR GENERAL

Over the past several quarters, complaints made to the OIG Hotline have consistently
increased, driven largely by growth in complaints related to NOAA (see figure 2). While some
complaints may have been caused by misunderstanding or miscommunication, they all need to
be reviewed individually. OIG provides complaints related to mismanagement and minor
misconduct to the responsible bureaus for proper handling. However, many cases referred to
bureaus for inquiries and actions have not been reviewed sufficiently or in a timely manner. To
provide effective oversight, the Department must address complaints referred by OIG
promptly and work to provide effective internal controls to help prevent issues before they
occur. We will continue working with the Department to enhance handling of these complaints.

 Figure 2. Complaints Received by Quarter for Agencies with Highest Complaint Volume,
 from Third Quarter, FY 2011, Through Third Quarter, FY 2012


   160


                                                                     136
   140
                                                        127

   120


   100
                                         89
              90           84
                                                                                    Total
    80
                                                                                    NOAA
                                                                                    Census
    60                                                                              USPTO



    40


    20


     0
          Q3, FY 2011   Q4, FY 2011   Q1, FY 2012   Q2, FY 2012   Q3, FY 2012

Source: OIG

Oversight of Use of Federal Funds Awarded to Grantees

The Department has more than 70 programs authorized to award grants. Between FYs 2009
and 2011, these programs issued almost $10 billion in American Recovery and Reinvestment
Act of 2009 (ARRA) and non-ARRA awards. Ensuring timely resolution of grant audit findings
and corrective actions is an essential aspect of grant oversight. In June 2012, we reported to the
Department that there were 25 unresolved audits, including 14 that were past due. More than


FINAL REPORT NO. OIG-13-003                                                                    10
U.S. DEPARTMENT OF COMMERCE                                         OFFICE OF INSPECTOR GENERAL

half of those that were past due were at NIST, which was experiencing a staffing shortage in its
Grants and Agreements Management Division. While we are aware that NIST has begun
addressing the backlog, timely grant audit resolutions need to be a priority.

With approximately $3.8 billion in grant awards, the Broadband Technology Opportunities
Program (BTOP), funded by ARRA, represents the most significant investment of federal funds
in the Department. As of June 30, 2012, about 50 percent of BTOP funds remain to be
disbursed. As these projects near their required 3-year completion dates (between November
2012 and September 30, 2013), the potential for fraud, waste, and abuse associated with such
large-dollar-amount awards will increase as recipient spending increases. However, the
uncertain funding for BTOP oversight in FY 2013 and beyond raises significant concerns about
the Department’s ability to adequately oversee the program in the future (e.g., closeout of
projects and oversight of projects that received extensions). Management needs to remain
committed to monitoring BTOP recipient compliance with grant award terms and achievement
of intended benefits.

Invest for Efficiencies and Long-Term Benefits

Smart investment for long-term benefits, when combined with responsible spending, is key to
success in today’s constrained budget environment. The Department has endorsed several
efforts to modernize its mission-support functions; for example, it has made good progress in
modernizing/standardizing Human Resources–related operations by adopting a government-
wide system solution offered by the Treasury Department. We have identified the following
modernization efforts as requiring management attention.

Modernization of Financial Management Systems

The Department and its bureaus use multiple legacy financial management systems to support
day-to-day operations, including a core accounting system developed with aging technology and
augmented with in-house software that is increasingly more difficult to maintain. The multiple
legacy financial systems cannot provide timely and accurate data for management decision
making. In addition, interfaces, reports, and data warehouses are duplicated, leading to high
maintenance costs. These limitations impede the Department’s ability to oversee Department-
wide financial activities.

The Department plans to replace all legacy financial systems—core financial accounting, financial
management, grants management, acquisition management, and property management—with
commercially available software between FYs 2014 and 2018. While modernizing legacy financial
systems has to be a priority for the Department, the planned implementation represents
significant challenges to the Department.

•		 The proposed implementation timetable is very aggressive for modernization projects of
    such size. However, as pointed out by the project team, this aggressive timetable is in
    compliance with OMB requirements of not exceeding 24 months when developing/
    implementing financial systems. To meet this aggressive schedule, the project team plans to
    significantly limit the amount of software customization. Bureaus are expected to adjust
    their financial/accounting/business operations based on the functionalities established in


FINAL REPORT NO. OIG-13-003                                                                     11
U.S. DEPARTMENT OF COMMERCE                                            OFFICE OF INSPECTOR GENERAL

   selected vendor software. With the diverse cultures in the Department, synchronizing
   bureau financial operations requires strong departmental governance.

•		 The Census Bureau is scheduled to be converted first by FY 2016. This timely conversion is
    critical to Census’s 2020 decennial readiness. Any schedule slippage could complicate
    decennial planning and cost-containment efforts. Management needs to keep close oversight
    of this modernization effort.

Renovation of the Herbert C. Hoover Building

For the first time in its 79-year history, the Herbert C. Hoover Building (HCHB) was scheduled
to undergo a comprehensive renovation between FYs 2008 and 2021. This project is led by the
U.S. General Services Administration (GSA) with a projected cost of more than $900 million,
and is to be completed in eight phases. However, this project is now at risk of not being funded
beyond phase 3. As a result, the building will remain noncompliant with current fire and safety
codes and regulations. If renovation is interrupted at phase 3, 62 percent of the building will still
contain hazardous material, 75 percent of HCHB will not have permanent fire suppression
systems, 55 percent of HCHB will lack blast window protection, and the majority of HCHB will
not meet the American with Disabilities Act requirements. This places building occupants at
risk. The Department needs to work with GSA and Congress to secure funding for continued
safety improvement in the building.

Implement Bold Design Changes to Contain 2020 Decennial Costs While
Maintaining Enumeration Quality

The Census Bureau has vowed to contain the costs of the 2020 decennial to an amount close
to final costs of the 2010 census. To achieve cost savings, the bureau is exploring new and
innovative design alternatives. While it seems that the 2010 decennial has just completed, the
Bureau is in the initial stages of 2020 census research and testing and is already encountering
challenges. In addition, the recent resignation of the director raises concerns. Because the
Bureau operates on long planning cycles for the decennial
census, it is difficult to maintain leadership with a              U.S. Population Estimate from
consistent vision—and much easier to fall back on old              U.S. Census Bureau
ways and institutional habits. We identified the following
issues requiring senior management attention.

Planning Within Constrained Budgets

Like the rest of the federal government, the Census
Bureau is operating in a constrained budget environment.
As a result of a reduction in its budget request for FY
2012, the Bureau canceled 20 of 109 studies to measure
its performance in the 2010 decennial. Another 25
studies, to be completed in FY 2013, are contingent on
funding. Canceling these studies may jeopardize the
identification of lessons learned, which is critical to
planning the next decennial. The Bureau must be strategic
                                                                  Source: OIG
FINAL REPORT NO. OIG-13-003                                                                        12
U.S. DEPARTMENT OF COMMERCE                                                     OFFICE OF INSPECTOR GENERAL

in how it spends its available funding. Also, it must provide the Secretary and Congress reliable
and transparent budget requests.

Leadership Continuity and Departmental Oversight

Leadership continuity is essential to maintain momentum as planning progresses for the 2020
decennial. Absent stable, committed leadership, any organization tends to revert to its
embedded culture. A leadership void on the top adds risk to the Bureau’s management of
critical issues (e.g., budget, operational design, and questionnaire content). Reverting to
historical practices and limited design changes experienced in recent decennial censuses will
result in unsupportable cost growth for the next census. To coordinate ongoing activities
leading to a cost-effective design decision, which must be made by the end of FY 2014, the
appointment of a new director must be a priority.

Departmental oversight should play a key role: early in the decennial development process, it
can reveal whether the Census Bureau has considered all reasonable project alternatives or if it
is assuming too much risk. In this way, the Department can work with the Bureau to address
problems before unnecessary costs accumulate. For example, the Department Information
Technology Review Board recently examined decennial IT planning efforts. It is critical that
departmental management continues close oversight to help ensure decennial cost containment
and quality.

Uncertainty Surrounding Funding for the American Community Survey

The American Community Survey (ACS) infrastructure allows for the creation and testing of
enterprise-wide solutions to obstacles that face all survey and decennial operations. In our final
2010 Census report to Congress, 16 we suggested that the Census Bureau use ACS to explore
areas such as questionnaire content and design, response options (such as the Internet), use of
administrative records, and targeted field data collection procedures and methodologies.
Census’s preliminary 2020 decennial cost estimates were based on the assumption that the
ACS program would continue. With Congress debating the elimination of funding for this
survey, management needs to factor into 2020 decennial planning efforts the significant
uncertainty this would create.

Ability to Use Administrative Records

Currently, one of the focal points of the 2020 Census research and testing agenda is to use
administrative records to improve the address list and reduce the number of visits to housing
units that do not return the questionnaire. The use of these records could potentially save
billions of dollars over the life cycle of the next census. However, obtaining access to these
records can be difficult because relevant statutes governing other federal agencies do not
compel them to provide their records to the Bureau. In addition, as we recently reported, 17

16
  U.S. Department of Commerce Office of Inspector General, June 27, 2011. Census 2010: Final Report to Congress,


OIG-11-030-I. Washington, D.C.: Department of Commerce OIG.


17
  U.S. Department of Commerce Office of Inspector General, May 10, 2012. High-Quality Maps and Accurate 

Addresses Are Needed to Achieve Census 2020 Cost-Saving Goals, OIG-12-024-I. Washington, D.C.: Department of 

Commerce OIG.




FINAL REPORT NO. OIG-13-003                                                                                    13
U.S. DEPARTMENT OF COMMERCE                                           OFFICE OF INSPECTOR GENERAL

although tribal, state, county, and local governments share address information with Census,
Title 13 forbids Census from reciprocating with those partners and federal agencies—with a
few, very narrow, exceptions, such as the once-a-decade address-updating program. According
to the Bureau, it is trying to identify opportunities that will provide detailed feedback to local
governments throughout the decade for address list improvements. However, to facilitate a
wide-ranging use of administrative records—key to containing 2020 decennial costs—
management needs to seek congressional guidance.




FINAL REPORT NO. OIG-13-003                                                                     14
U.S. DEPARTMENT OF COMMERCE                                                        OFFICE OF INSPECTOR GENERAL


Challenge 3:
Strengthen Security and Investments in Information Technology
In FY 2012, the Department planned to invest $2.4 billion in IT. This is about 25 percent of its
annual budget and one of the highest percentages devoted to IT among all civilian agencies. The
Department and its constituent bureaus rely on IT to support major mission activities, such as
producing the constitutionally mandated decennial census; releasing vital economic statistics
(e.g., the gross domestic product and consumer spending); granting patents and trademarks;
issuing severe weather alerts; and operating weather satellites. However, we have identified
major concerns in the Department’s IT security posture and fragmented IT governance. While
the Department’s Chief Information Officer (CIO) has taken steps to strengthen IT governance,
we continue to find significant security vulnerabilities in bureau systems, which could lead, and
already have led, to service disruptions and loss of sensitive information. We have identified
four areas for management attention:

•	 Continue improving Commerce’s IT security posture by addressing persistent security
   weaknesses

•    Develop resilient incident response and recovery capabilities with increased monitoring of
     Internet traffic

•    Manage Commerce’s IT portfolio with enhanced governance structure

•	 Strengthen oversight of IT investments

Continue Improving Commerce’s IT Security Posture by Addressing Persistent
Security Weaknesses

Government agencies, Internet commerce, and vital business sectors are all affected by the
rapid increase in the number of cyberattacks. The Department is under constant threat because
of its reliance on Internet-based technologies, which interconnect its IT systems and facilitate
business with the public. In fact, several of the Department’s bureaus fell victim to significant
cyber intrusions in recent years. For example, in January 2012, as a result of a malware
infection, the Economic Development Administration (EDA) disconnected its systems from the
Internet, greatly affecting its ability to maintain normal business operations. Also, hackers
successfully penetrated two other bureaus’ networks during FY 2012, resulting in exfiltration 18
of user account information. Hackers could have gained unauthorized access to the bureaus’
sensitive information. These incidents resulted from a persistent lack of basic security controls.

We conducted security assessments on a targeted selection of 18 systems from six bureaus in
FY 2010 and 10 systems from three bureaus in FY 2011. We also assessed the security posture

18
  Exfiltration, in the context of this report, refers to the unauthorized transfer of information from an organization
to external entities.


FINAL REPORT NO. OIG-13-003                                                                                        15
U.S. DEPARTMENT OF COMMERCE                                                OFFICE OF INSPECTOR GENERAL

                            of 15 Web application systems from eight bureaus. In FY 2012, we
                            assessed the effectiveness of four bureaus’ information security
                            programs by evaluating key security measures in place to protect
                            mission-critical information that is processed, stored, or transmitted
                            by 17 information systems within these bureaus.

                           Over the years, we have repeatedly identified significant flaws in basic
                           security measures protecting IT systems and information. We have
continually called for greater attention and stronger commitment from the Department’s senior
management to the basic security practices, which, if properly implemented, can effectively
minimize or stop cyberattacks before a serious compromise occurs. In response to our
FYs 2010 and 2011 recommendations, the Department has updated its IT security policy for
vulnerability scanning, secure configurations, and management of plans of action and milestones.
However, the Department needs to enforce these polices because we continue to find similar
security weaknesses in department-wide and bureau systems. For example, we reported the
following persistent security weaknesses in FYs 2010, 2011, and 2012: 19

•    High-risk vulnerabilities

•    Deficient patch management

•    Inadequate secure configuration settings

•    Ineffective vulnerability scanning

•    Security weaknesses not tracked or remediated expeditiously

Last year, we reported that the Department had taken the significant step of including
information security measures in the Deputy Secretary’s quarterly balanced scorecard review
with bureau heads, to help institutionalize good security practices. However, we found that
those measures were inconsistently reported across the Department. For example, bureaus
chose different security controls as their reporting measures. Such reporting makes it harder to
assess overall performance of the Department’s IT security program. To correct this
inconsistency, the Office of the Chief Information Officer, after collaborating with the bureaus,
issued guidance in July 2012 to help bureaus consistently and accurately report their IT security
performance in future balanced scorecards. With this renewed focus on using consistent and
accurate security measures for balanced scorecard review, the Department should require
bureaus to demonstrate progress in correcting persistent security weaknesses.




19
  U.S. Department of Commerce Office of Inspector General, November 2010. Federal Information Security
Management Audit Identified Significant Issues Requiring Management Attention, OIG-11-012-A. Washington,
D.C.: Department of Commerce OIG; U.S. Department of Commerce Office of Inspector General, November 2011.
FY 2011 Federal Information Security Management Act Audit: More Work Needed to Strengthen IT Security
Department-Wide, OIG-12-007-A. Washington, D.C.: Department of Commerce OIG.


FINAL REPORT NO. OIG-13-003                                                                             16
U.S. DEPARTMENT OF COMMERCE                                                     OFFICE OF INSPECTOR GENERAL

Develop Resilient Incident Response and Recovery Capabilities with Increased
Monitoring of Internet Traffic

EDA (at the time of the cyber incident) and several other bureaus located in the main
Commerce building rely on the Department’s Computer Incident Response Team (DOC CIRT)
to provide forensic analysis when a cyber event occurs. However, while investigating EDA’s
cyber incident, DOC CIRT faced technical challenges and had to depend heavily on several
internal and external groups, such as NIST, the Department of Energy, and other federal
agencies for assistance. The Department needs to strengthen its incident response capabilities
to effectively deal with ever-increasing cyber events.

In addition, this cyber incident exposed a weakness in EDA’s continuity of operations planning.
For example, due to malware infection on its systems, which may have existed on the systems
for several years, EDA could not assure that information stored on its electronic backup media
was not contaminated. As a result, EDA had to “clean” the information before using it to
reconstitute its systems, which significantly extended the reconstitution time. As a lesson
learned from the EDA incident, the Department should ensure that bureaus consider the
potential effects of corrupted information from cyberattacks when planning continuity of
                                                       operations.
     The Department should ensure that
                                                      The Department has made a concerted 

     bureaus consider the potential effects of        effort to implement OMB’s Trusted 

     corrupted information from cyberattacks		        Internet Connection (TIC) initiative, 

                                                      which should better monitor cyber


     when planning continuity of operations.
                                                      threats from the Internet. All bureaus,
                                                      except the Census Bureau and NOAA,
will acquire TIC service by December 2012. NOAA is planning to be its own TIC access
provider by 2014. However, the Census Bureau raised concern over TIC’s inspection process,
which could allow third parties, such as the Department of Homeland Security, to access
sensitive information that must be protected against disclosure by Title 13 of the United States
Code. 20 As a result, the Census Bureau has no definite timeline for TIC implementation but
continues to work with the Department of Homeland Security to achieve a mutually acceptable
solution. The Department needs to assign a high priority to helping Census resolve the concern
about potential violation of Title 13 requirements.

Manage Commerce’s IT Portfolio with Enhanced Governance Structure

We previously attributed the Department’s long-standing information security weaknesses to
its fragmented CIO governance. In addition to the Department’s CIO, there have been 18 CIOs
in Commerce’s bureaus, including 7 within NOAA. The Department’s CIO had little oversight
of bureau budget submission and performance evaluation of key bureau IT management. This
weak central governance resulted in stovepipes in IT investments and difficulties in fixing
persistent security weaknesses.


20
  Title 13 is the law under which the Census Bureau operates. The law guarantees the confidentiality of census
information and establishes penalties for disclosing this information.


FINAL REPORT NO. OIG-13-003                                                                                      17
U.S. DEPARTMENT OF COMMERCE                                                   OFFICE OF INSPECTOR GENERAL

In June 2012, the Acting Secretary issued the “Department IT Portfolio Management
Strategy,” 21 which expanded the role of the Commerce CIO. Previously limited to policymaking
and infrastructure maintenance, the Commerce CIO now implements Department-wide IT
shared commodity services, approves bureaus’ IT investments, and provides at least 25 percent
of performance appraisals of individuals responsible for IT commodity services. Under the new
strategy, there will be only one CIO per bureau for better accountability.

This new strategy is an important step. However, it is too early to judge its effectiveness for
two reasons. First, historically, bureaus have functioned independently on IT matters with little
departmental direction. Second, the new strategy focused on increasing the Department CIO’s
influence on “IT shared commodity services,” such as networks, data centers, and e-mails,
which account for only about 25 percent of the Department’s total IT investments. Senior
management should consider further enhancing the IT governance structure to help ensure the
Department’s success with several major IT investments on the horizon—supporting 2020
Decennial operations, implementing patent reform, modernizing weather-related information in
Next Generation Air Traffic Control Systems, and replacing all departmental legacy financial
systems. Further, to meet OMB’s directive to reduce FY 2014 IT spending by 10 percent (a
reduction of $226 million for the Department), the CIO needs to leverage newly enhanced
authority to turn around at-risk projects and to eliminate duplicative IT assets, contracts, and
services.

Strengthen Oversight of IT Investments

The Department’s IT review board, led by the CIO and Chief Financial Officer (CFO), reviews
major IT investments for status updates and requests for additional spending authority 22 and
conducts TechStat reviews, which focus on putting troubled investments back on track. In
calendar years 2011 and 2012, the IT review board has held 20 major IT investment reviews,
seven TechStat reviews, and two special risk reviews on NOAA’s satellite programs and the
Bureau of Industry and Security’s USXPORTS Exporter Support System. Also, as part of the
budget process, agencies are required to submit IT capital asset summaries, which specify the
cost, schedule, and performance baselines for major IT investments. The Office of the CIO
collects this information, as well as monthly updates; evaluates investment risk; and submits this
information to the OMB Federal IT dashboard.

The Department’s CIO has taken steps to improve the IT investment review process, such as
having bureaus submit project information to the CIO’s subject matter experts for analysis
before the review meeting. Such improvements, in conjunction with TechStat reviews and the
increased visibility provided by the federal IT dashboard, have contributed to improving the
likelihood of investment success. However, three of six troubled IT investments have remained
at high risk for more than 12 months (see table 1), and according to information on the OMB
Federal IT dashboard, about 25 percent of Commerce’s major IT investments are 30 percent or
more behind schedule.

21
   U.S. Department of Commerce, Acting Secretary. June 21, 2012. Department IT Portfolio Management Strategy.


Washington, D.C.: Department of Commerce.


22
   Departmental officials also conduct reviews of non-IT acquisition projects. See challenge 4: Implement


Framework for Acquisition Project Management and Improve Contract Oversight.




FINAL REPORT NO. OIG-13-003                                                                                 18
U.S. DEPARTMENT OF COMMERCE                                          OFFICE OF INSPECTOR GENERAL

 Table 1. High-Risk Commerce IT Investments
                                                          Total FY 2012
                                                          Spending        Months at High
  Bureau                     Investment                   ($ Million)     Risk 2010–2012
  Census    American Community Survey                             39              2
            Decennial 2010 systems design, integration,
            and evaluation                                      24                9
            IT infrastructure                                  130                1
  NOAA       Joint Polar Satellite System ground system        154               15
            National Weather Service
            telecommunication gateway                           21               20
            Weather Radio Improvement Project                    5               18

The CIO and CFO, in conjunction with bureau heads, need to ensure that program
management is more aggressively addressing investments with a history of high risk. For
example, bureaus should be required to bring in outside experts to quickly assess root causes
and provide remedies for failing investments, as was done for the National Telecommunications
and Information Administration’s Federal Spectrum Management System. The CIO should
terminate IT investments that cannot be turned around and find alternative approaches for
acquiring needed services.




FINAL REPORT NO. OIG-13-003                                                                 19
U.S. DEPARTMENT OF COMMERCE                                                          OFFICE OF INSPECTOR GENERAL


Challenge 4:
Implement Framework for Acquisition Project Management and Improve
Contracts Oversight
In FY 2011, the Department obligated approximately $2.4 billion on contracts for goods and
services, including satellite acquisitions, intellectual property protection, broadband technology
opportunities, management of coastal and ocean resources, information technology, and
construction and facilities management. Table 2 illustrates the dollar amounts that Commerce’s
operating units have obligated through contracts in recent years.

To maximize these funds, the Department needs to strengthen its acquisition and contract
management practices. While it has made some progress—such as reorganizing the Office of
Acquisition Management to more directly address major acquisition initiatives and implementing
an Acquisition Center of Excellence, which will consolidate acquisition support for the
Department’s smaller bureaus, our audits continue to find weaknesses in how the Department
plans, administers, and oversees its contracts and acquisition programs. We have identified four
areas for management attention:

•      Implement the planned framework for acquisition project management

•      Oversee high-risk contracts

•      Maintain an acquisition workforce that holds bureau officials accountable

•      Implement an effective suspension and debarment program

 Table 2. Dollar Amounts Obligated by Commerce’s Operating Units
                              FY 2009                        FY 2010                        FY 2011
     Commerce         Contract         Dollars       Contract          Dollars      Contract        Dollars
     Acquisition      Actions 23    (in millions)    Actions        (in millions)    actions     (in millions)
     Office
     NOAA                 16,831         $1,159          16,087           $1,624      14,159           $1,160
     Census                3,332          1,308           3,187            1,312       1,849              522
     USPTO                 1,776            384           1,619              431       2,134              388
     NIST                  4,768            286           4,992              505       5,224              253
     Office of the
     Secretary               768             63             870               53       1,161               44
     Total                27,475         $3,200          26,755           $3,925      24,527           $2,367
     Source: Department of Commerce Office of Acquisition Management




23
     Contract actions include contracts, delivery orders, task orders, and contract modifications.


FINAL REPORT NO. OIG-13-003                                                                                      20
U.S. DEPARTMENT OF COMMERCE                                                       OFFICE OF INSPECTOR GENERAL

Implement the Planned                           The Office of Acquisition Management
Framework for Acquisition
Project Management                              developed a framework, which described the
                                                minimum standard of processes required of
Because of challenges the                       high-profile projects, including capital
Department encountered in earlier
acquisitions, in June 2010, the                 investments such as satellites, information
former secretary mandated a study               technology, facilities, and ships and aircraft.
be conducted on ways to improve
the acquisition process. The resulting study identified several problems with the system—
including requirements, cost analysis, and oversight of major projects. To address these
concerns, the Office of Acquisition Management developed an Acquisition Project Management
Framework/Guidebook (see figure 3), which described the minimum standard of processes and
major milestone reviews required of high-profile projects—including capital investments such as
satellites, information technology, 24 facilities, and ships and aircraft—throughout multiple
acquisition phases: conceptual development, project definition, and project development
(including procurement/contracting). 25 The framework also highlights the importance of
independent reviews and reliable cost estimation, among other things. This is a significant
improvement when compared with the previous departmental framework, which focused
largely on procurement/contracting–related activities.
 Figure 3. The Acquisition Project Management Framework




 Note: MS = milestone.
 Source: Department of Commerce Office of Acquisition Management.


The new framework, if implemented consistently, should increase the transparency of bureau
acquisition programs and help mitigate risks of cost overruns, schedule delays, and performance
shortfalls commonly experienced by major acquisitions. Based on dollar thresholds, risks, and
specific designation, Departmental management has selected a group of current bureau
acquisition programs for review, in accordance with the new framework. Through programs
such as NOAA’s acquisition of new and improved satellites and Census’s preparations for the
2020 decennial census, the Department will have many opportunities to practice the
framework.

However, incorporating the framework into the Department’s acquisition policy will require
management attention. The Department has not used such a detailed process to program, plan,

24
     See also challenge 3: Strengthen Security and Investments in Information Technology.
25
     The Department also drafted an interim policy for applying the framework pending for signature.


FINAL REPORT NO. OIG-13-003                                                                              21
U.S. DEPARTMENT OF COMMERCE                                          OFFICE OF INSPECTOR GENERAL

and budget for new acquisitions. In addition, bureaus such as NOAA question its need because
they use their own detailed acquisition policies. The Department needs to ensure that the
departmental policy requiring the use of the acquisition framework is issued and followed by all
bureau officials to timely achieve its mission requirements.

Implementing the Acquisition Project Management Framework (when expanded to cover the
asset disposal process) could also help the Department ensure timely replacement of aging
equipment. For example, aircraft used to conduct hurricane surveillance are all nearing the end
of their useful life, and more modern versions are needed. However, planning efforts to replace
aged aircraft have not yet started despite the bureau’s knowledge of the need.

Oversee High-Risk Contracts

In FY 2011, the Department reported progress in reducing dollar amounts of high-risk contract
awards. Despite this progress, overseeing existing high-risk contracts remains a challenge to
management. We continue to find weaknesses in the use of cost-plus-award-fee (CPAF) and
cost-plus-award-term (CPAT) contracts, which put the Department’s contract dollars at risk.
CPAF and CPAT contracts can encourage excellence by providing financial incentives based on
performance, but they require effective monitoring to ensure contract dollars are spent wisely
and award fees and terms are justified. In May 2012, we reported that NOAA did not use
                                              measurable evaluation criteria or payment
  More than $40 million was paid in structures to motivate exceptional performance.
  award fees or approved for                  Ultimately, NOAA consistently gave contractors
                                              high ratings and substantial award fees and
  contract extensions without proper contract extensions, despite lacking adequate
  justification.                              support for their actual performance, as measured
                                              by evaluation criteria and required by the Office of
Management and Budget. Based on our audit, we found that more than $40 million was paid in
award fees or approved for contract extensions without proper justification. Effective
implementation of NOAA measures will be critical to ensuring it does not pay improper award
fees and extend contract terms.
Poor data systems could also undermine the Department’s efforts in managing its high-risk
contracts. Our audits have found that Commerce acquisition information reported in the
Federal Procurement Data System–Next Generation (FPDS-NG) is incomplete and inaccurate.
For example, in May 2012, we reported that the complete picture of NOAA’s use of CPAF and
CPAT contracts was unclear. Data reported in FPDS-NG and records maintained by NOAA on
the use of CPAF and CPAT contracts were also inaccurate and incomplete. NOAA is the
largest of all of the Department’s procurement offices, obligating approximately 49 percent of
the funding in FY 2011.




FINAL REPORT NO. OIG-13-003                                                                    22
U.S. DEPARTMENT OF COMMERCE                                                     OFFICE OF INSPECTOR GENERAL

Management needs to focus on developing reliable information, and data management systems
will position the Department to conduct more strategic acquisitions. This focus should begin
with the Department implementing our May 2012 recommendation to adhere to Commerce
policy to validate data to more accurately reflect the contract types. 26

Maintain an Acquisition Workforce That Holds Bureau Officials Accountable

In a March 2009 memorandum, the President acknowledged that the government needs to
ensure that it has the workforce needed to carry out robust and thorough oversight of
contracts to help program management achieve goals, avoid significant overcharges, and curb
wasteful spending. 27 However, the capacity and the capability of Commerce’s acquisition
workforce to oversee and manage contracts face major challenges due to high turnover and
employee retirement, coupled with a significantly reduced budget, gaps in key competency
areas, and expanded workload. Like many federal agencies, the Department is faced with the
major challenge of replacing existing talent because of a large number of retirements expected
over the next several years. Of the approximately 200 contracting officers and specialists that
Commerce employs, more than half can retire within 10 years. In addition, 14 percent of them
are already eligible for immediate retirement. Replacing these employees represents a significant
challenge since many possess unique skills and institutional knowledge that will be difficult to
replace.

Additionally, 36 contracting officers and specialists left the Department in FY 2011—an attrition
rate of 18 percent compared with the Department’s overall attrition rate of 3 percent. 28 While
the DOC has taken some actions to improve its ability to recruit qualified candidates, such as
increasing the number of entry-level contracting job series from 24 in FY 2010 to 28 in
FY 2011, improving recruiting activities will require a long-term commitment and focus. The
Department needs to continue its recruitment efforts at the entry levels and focus on retention
of that staff to maintain corporate knowledge about the respective bureau processes within the
Department. This knowledge will provide a long-term assurance that the Department’s future
missions can be accomplished.

Also, our investigations have continuously identified the need for more vigilant oversight and
stronger process controls to detect and prevent procurement fraud, waste, and abuse within
the Department and among its fund recipients and contractors. The following examples of OIG
investigative findings illustrate the need for Commerce's continued attention to procurement
integrity issues:




26
   U.S. Department of Commerce Office of Inspector General, May 2012. NOAA’s Cost-Plus-Award-Fee and Award-
Term Processes Need to Support Fees and Extensions, OIG-12-027-A. Washington, D.C.: Department of Commerce
OIG.
27
   President’s Memorandum, March 4, 2009. Government Contracting.
28
   According to Commerce Office of Acquisition Management, the attrition rate of 18 percent was calculated based
on 36 positions, NOAA: 16, NIST: 9, OS: 6, Census: 4, USPTO: 1, divided by 200 positions onboard at the end of FY
2011. The 3 percent was calculated based on the total of employees in any series that separated from Commerce
in FY 2011 (1,536) divided by the number on board at the end of FY 2011 (47,626).


FINAL REPORT NO. OIG-13-003                                                                                   23
U.S. DEPARTMENT OF COMMERCE                                                OFFICE OF INSPECTOR GENERAL

•		 Misuse of government credit cards, including falsification of purchase card records

•		 Conflicts of interest due to personal relationships between grant awarding officials and grant
    recipients, to include familial, marital (in-law) and former employer/employee relationships

•		 Misuse of public position for private gain—for instance, Commerce employees acquiring
    property or services through the Department’s funds under the premise of fulfilling a
    bureau function but then diverting the property or service for their personal use

•		 Misuse of items purchased with Commerce funds, such as a NOAA boat that was used
    recreationally by NOAA officials

Finally, in the light of the known issues concerning GSA’s misuse of resources for agency
conferences, we have seen an increase in attention related to spending on conferences. The
Department has implemented new procedures to review conference spending. Bureau heads
should now be more sensitive to the public perception of conference spending and inclined to
make better spending decisions related to conferences.

Implement an Effective Suspension and Debarment Program

We previously reported on the challenges facing the Department in ensuring that it contracts
with and provides funding assistance only to responsible parties. 29 Since finalizing its first
suspension or debarment action in over 15 years, in April 2011, the Department has made
progress toward establishing an efficient and durable suspension and debarment program. OIG
has referred nine matters, including five since September 2011, to the Department’s Suspending
and Debarring Official (SDO). Based on these referrals, the SDO has taken 37 total actions and
declined one referral.
The SDO continues efforts toward establishing a strong program, including regular attendance
at monthly meetings of the Interagency Suspension and Debarment Committee; designation of a
Suspension and Debarment Coordinator, who serves as a focal point for the program;
preliminary planning for routine intradepartmental training on suspension and debarment; and
establishment of regular meetings with the Office of General Counsel and OIG’s Office of
Counsel. However, certain issues present ongoing challenges. Although the SDO’s office has
begun drafting policy documents to institutionalize processes and procedures regarding the
referral, review, and issuance of suspension and debarment matters, the adoption process
needs to be finalized. Also, even though the SDO’s processing efficiency has increased over the
past year, there is room for improvement regarding the prompt review of referrals; and the
program lacks a clear delineation of roles and responsibilities in such important areas as revising
and adapting draft documents prepared by OIG for possible use in suspension and debarment
actions and appropriately following up on actions once taken.




29
  U.S. Department of Commerce Office of Inspector General, October 2011. Top Management Challenges Facing
the Department of Commerce, OIG-12-003. Washington, D.C.: Department of Commerce OIG.


FINAL REPORT NO. OIG-13-003                                                                             24
U.S. DEPARTMENT OF COMMERCE                                                      OFFICE OF INSPECTOR GENERAL


Challenge 5:
Reduce Risks of Cost Overruns, Schedule Delays, and Coverage Gaps for
NOAA’s Satellite Programs
Managing risks in the acquisition and development of the next generation of environmental
satellites is a continuing challenge for the Department. The two most prominent programs, 30
the Joint Polar Satellite System (JPSS) and the Geostationary Operational Environmental
Satellite-R series (GOES-R), together account for one-third of NOAA’s FY 2013 budget
request. They are also the largest investments in the Department, comprising nearly 20 percent
of the Commerce budget. The satellites will provide data and imagery for weather
forecasting—including severe-storm tracking and alerting—and the study of climate change.
Operating environmental satellites and weather forecasting are designated as primary mission-
essential functions of the Department because they help lead and sustain the nation in the event
of a catastrophe. Yet, because of cost overruns, schedule delays, and the aging of NOAA’s
current constellation of satellites, NOAA is confronting coverage gaps for these critical assets.

Strong program management and close oversight of these programs are needed, to manage
risks that inevitably lead to cost overruns, schedule delays, and coverage gaps for the critical
capabilities these programs will provide. Based on our work with these programs, we have
identified four areas for management attention:

•    Communicate with stakeholders to define JPSS capabilities, schedule, and cost baselines

•    Ensure adequate leadership and governance structure over JPSS development

•    Develop a plan to support NOAA weather forecasting capabilities during coverage gaps

•    Reduce program risks associated with GOES-R development

Communicate with Stakeholders to Define JPSS Capabilities, Schedule, and Cost
Baselines

In our September 2011 audit report, 31 we recommended that NOAA develop a mechanism to
provide executive and legislative decision makers, on a recurring basis, with complete,
objective, and understandable information that illustrates the consequences of limiting satellite
observational capabilities. This was driven, in part, from congressional concerns regarding
NOAA’s limited communication of plans for its satellite programs. Recently, the Senate
Committee on Appropriations expressed frustration with NOAA’s “inability to control


30
   Other satellite acquisitions include Jason-3, which will measure sea surface height, and Deep Space Climate 

Observatory, which will provide advance warnings of solar storms affecting earth.


31
   U.S. Department of Commerce, Office of Inspector General, September 30, 2011. Audit of the Joint Polar Satellite 

System: Challenges Must Be Met to Minimize Gaps in Polar Environmental Satellite Data (OIG-11-034-A).


Washington, D.C.: Department of Commerce OIG.




FINAL REPORT NO. OIG-13-003                                                                                      25
U.S. DEPARTMENT OF COMMERCE                                                    OFFICE OF INSPECTOR GENERAL

procurement costs or articulate reliable funding profiles.” 32 This resulted in the Senate
Committee losing confidence in NOAA’s ability to manage its portfolio of satellite acquisitions.
The Committee’s appropriations bill, if enacted, would transition NOAA’s satellite acquisitions
entirely to NASA. As such, it’s clear that NOAA must do more to improve communication
with stakeholders.

NOAA’s JPSS program uses NASA as its acquisition agent, leveraging that agency’s
procurement and system engineering expertise—an arrangement based on previous
partnerships between the two agencies. In its FY 2011 budget submission, NOAA reported that
the two-satellite JPSS program, running through 2024, would cost $11.9 billion. Requirements
changes and an extended life cycle through 2028 resulted in a revised cost estimate of
$14.7 billion. In its FY 2013 budget submission, however, NOAA committed to capping the cost
of the program at $12.9 billion and submitted a nearly flat-line annual budget estimate of
$900 million, plus the cost of climate sensors previously budgeted under a different NOAA
program, from FY 2013 to FY 2017. Although the program has since constructed a cost
estimate to support the $12.9 billion cost cap, its high-level requirements were recently
finalized in October 2012. Pending decisions on lower-level requirements, acquisition
strategies, and system design—particularly for the ground system and “free-flyer” satellites
(which will host search-and-rescue and data collection instruments, separate from the
program’s primary satellites)—could have ramifications for launch schedules and cost:

     •		 The ground segment project recently completed its requirements review in August; it
         was originally scheduled to precede the program-level review in May. Program officials
         have told us that there is a need to rethink legacy requirements 33 in the light of current
         needs and technology options.

     •		 There is a significant amount of uncertainty in requirements for free-flyer satellites. For
         the free flyers, information security requirements had to be analyzed and ground
         support options determined. This uncertainty in requirements translates to uncertainty
         in the program’s life-cycle cost estimate.

During FY 2012, NOAA has made progress in prioritizing JPSS requirements to support its
commitment to capping the life-cycle costs at $12.9 billion. While this approach shows serious
management commitment, fitting requirements into a previously authorized budget increases
the risk that requirements will be dropped or launches delayed in order to remain within the
budget. NOAA needs to revisit the life-cycle cost estimates after finalizing JPSS requirements
and work with the Department and congressional representatives in adjusting its budget
estimates.




32
   Senate Report 112-158 (discussing Committee rationale for transfer to NASA); Commerce, Justice, Science, and
                                                       th
Related Agencies Appropriations Act, 2013, S. 2323, 112 Cong. (2012).
33
   Requirements were transferred from JPSS’ predecessor system, the tri-agency National Polar-orbiting
Operational Environmental Satellite System, which undertook development of next-generation polar satellites
from 1995 until early 2010, when the White House Office of Science and Technology Policy restructured it into
separate military and civilian (JPSS) programs.


FINAL REPORT NO. OIG-13-003                                                                                   26
U.S. DEPARTMENT OF COMMERCE                                         OFFICE OF INSPECTOR GENERAL

Ensure Adequate Leadership and Governance Structure over JPSS Development

More progress defining JPSS capabilities, schedule, and cost may have been possible if not for
delays defining the program’s governance structure and staffing key program and NOAA
positions. NOAA and NASA finally agreed to a management control plan for JPSS in February
2012, nearly 2 years after the program was started. Further, NOAA and its JPSS program have
had key staff in acting, rather than permanently filled, capacities for extended periods of time
(see table 3). Only the Under Secretary of Commerce for Oceans and Atmosphere and the
Assistant Administrator, National Environmental Satellite, Data, and Information Service
(NESDIS), positions have been permanently filled since the program’s inception.

  Table 3. NOAA JPSS Program Authorities
                                       Status at
                                    Program Start
               Position               (Feb 2010)                     Current Status
    Under Secretary of Commerce
     for Oceans and Atmosphere/
         NOAA Administrator              Filled                           Filled
        Assistant Secretary for
    Environmental Observation and
   Prediction/Deputy Administrator     Vacant                      Filled (May 2011)
      Deputy Under Secretary for                              Acting (January–June 2012)
              Operations                 Filled                    Filled (July 2012)
   Assistant Administrator, NESDIS       Filled                           Filled
      NESDIS Deputy Assistant                              Acting (February 2010–May 2012)
      Administrator for Systems              Filled              Currently vacant
             JPSS Director                  Acting              Filled (September 2011)
 Source: OIG analysis of NOAA information


Qualified officials, who can make timely decisions and take management action, are essential to
the success of JPSS development. For example, NOAA’s Deputy Under Secretary for
Operations is deemed the final authority for the program’s high-level requirements, schedule,
and budget submissions. The former official retired in January 2012 and was not permanently
replaced until July 2012, even though the interim period included the FY 2013 President’s
Budget submission and other decisions on high-level requirements. Currently, the NESDIS
Deputy Assistant Administrator for Systems position, which serves as NOAA’s single source of
programmatic direction and guidance to NASA for NOAA programs, is vacant. Previously, this
position was staffed in an acting capacity. Detailed employees, in acting capacities, occupy
several other key positions within NESDIS and the program. NOAA needs to fill open positions
overseeing JPSS development and govern the program according to the management plan
accepted by NASA.




FINAL REPORT NO. OIG-13-003                                                                    27
U.S. DEPARTMENT OF COMMERCE                                         OFFICE OF INSPECTOR GENERAL

Develop a Plan to Support NOAA Weather Forecasting Capabilities During
Coverage Gaps

Over the course of the program to date, we have analyzed Suomi National Polar-orbiting
Partnership (Suomi NPP, a recently launched, risk-reduction satellite that is flying the first
versions of JPSS sensors) and JPSS schedules to assess expected gaps in weather forecast data.
Currently, we project a 10–16-month gap between Suomi NPP’s end of design life and when
JPSS-1 data become available for operational use—a refinement from last year’s estimate of 9–
21 months (see figure 4). NOAA’s medium-range weather forecasting (3–7 days) could still be
significantly degraded during the period of time JPSS data are unavailable.

Figure 4. Potential Continuity Gaps for Polar-Satellite Operational Forecast Data




Source: OIG analysis of JPSS program data

In our September 2011 report, we reported on activities within NOAA to use other sources of
data to mitigate gaps and recommended NOAA coordinate efforts from across its line offices
to minimize the degradation of weather and climate forecasting. In response, NOAA indicated
that it was looking at both foreign and commercial sources of data. However, NOAA has not
fully developed a strategy for evaluating and selecting foreign data sources. Nor has it
completed a comprehensive mitigation plan for polar satellite coverage gaps. Obtaining support
from other reliable sources could be time consuming. NOAA needs to develop a timetable to
measure its progress towards having a mitigation plan in place before Suomi NPP’s end of
design life: November 2016.


FINAL REPORT NO. OIG-13-003                                                                  28
U.S. DEPARTMENT OF COMMERCE                                                             OFFICE OF INSPECTOR GENERAL

The risk of a near-term gap between NOAA-19 (NOAA’s primary operational polar-orbiting
satellite) and Suomi NPP has been largely mitigated. Suomi NPP launched October 28, 2011,
and within 7 months, NOAA supercomputers began assimilating data from the Advanced
Technology Microwave Sounder (ATMS) in numerical weather prediction models. Other issues
will result in delaying the use of data from the Cross-track Infrared Sounder (CrIS), which
complements those from ATMS, until December 2013—after NOAA-19’s end of design life.
However, NOAA forecast models currently use data from NASA’s Aqua satellite, which are
similar to CrIS data. 34

Reduce Program Risks Associated with GOES-R Development

GOES-R (see figure 5) is also a NOAA/NASA partnership, with NOAA having overall program
responsibility. Unlike JPSS, however, NOAA is solely managing the acquisition and development
of the GOES-R ground system while NASA is primarily directing the flight segment (spacecraft,
instruments, launch vehicle and services). The GOES-R series of satellites will provide
uninterrupted short-range severe weather warning and “now-
casting” capabilities through 2036. With four satellites (the      Figure 5. GOES-R Satellite
GOES-R, -S, -T, and -U), the program is estimated to cost
$10.9 billion over the course of its life cycle.

The GOES-R program recently held a key technical milestone
review (critical design) in August 2012. Subsequently, the
program downgraded, from green to yellow, its assessment of
schedule and technical development because of various issues
with the spacecraft and instruments and the need to aggressively
manage dependencies with the ground project’s development.
The ground segment’s schedule has become more incremental—
which will increase schedule flexibility, as well as better align the
delivery schedule for GOES-R spacecraft, instruments, and
documentation. Despite progress made, there is less than a 50         Source: NOAA
percent chance the GOES-R satellite will be launched on
schedule, in October 2015, based on the program’s own models used to assess GOES-R
development. NOAA must implement solid program management and system engineering
principles to control costs, keep schedules on track, and maintain required technical
performance.

The program’s standing review board has also warned that should the program’s request in the
President’s FY 2013 budget submission (an increase of nearly $200 million, or 30 percent, from
FY 2012) not be realized, a launch delay is nearly certain, which could significantly limit NOAA’s
capability of providing short-range severe weather warning. NOAA’s policy for its geostationary
satellites is to have three satellites in orbit—two operational satellites with overlapping
coverage and one spare for backup (see figure 6). As we reported last year, NOAA may not be
able to meet its policy of having an on-orbit spare even without a GOES-R launch delay,
because of retirement of current GOES series satellites. A launch delay beyond October 2015
increases the risk that just one geostationary imager will be on orbit, a scenario in which

34
     Aqua is an aging satellite. Launched in 2002, its original mission life was 6 years.


FINAL REPORT NO. OIG-13-003                                                                                    29
U.S. DEPARTMENT OF COMMERCE                                       OFFICE OF INSPECTOR GENERAL

NOAA’s capability to visualize and track severe weather events would be severely limited.
NOAA needs to adequately communicate to decision makers its justification for the significant
funding increase for FY 2013, citing such reasons as to order items that require long
manufacturing lead times or to hire qualified engineers, technicians, and so on.

   Figure 6. Continuity of Geostationary Operational Satellites




Source: OIG adapted from NOAA geostationary satellite schedules




FINAL REPORT NO. OIG-13-003                                                                 30
U.S. DEPARTMENT OF COMMERCE                                          OFFICE OF INSPECTOR GENERAL


Acronym List


ACS                           American Community Survey
AMTech                        Advanced Manufacturing Technology Consortia
ARRA                          American Recovery and Reinvestment Act of 2009
ATMS                          Advanced Technology Microwave Sounder
BIS                           Bureau of Industry and Security
BTOP                          Broadband Technology Opportunities Program
CFO                           Chief Financial Officer
CIO                           Chief Information Officer
CPAF                          cost-plus-award-fee
CPAT                          cost-plus-award-term
CrIS                          Cross-track Infrared Sounder
DOC CIRT                      Department’s Computer Incident Response Team
EDA                           Economic Development Administration
FirstNet                      First Responder Network Authority
FPDS-NG                       Federal Procurement Data System–Next Generation
FY                            fiscal year
GAO                           U.S. Government Accountability Office
GOES-R                        Geostationary Operational Environmental Satellite-R series
GSA                           U.S. General Services Administration
HCHB                          Herbert C. Hoover Building
IT                            information technology
ITA                           International Trade Administration
JPSS                          Joint Polar Satellite System
NEI                           National Export Initiative
NESDIS                        National Environmental Satellite, Data and Information Service
NIST                          National Institute of Standards and Technology
NOAA                          National Oceanic and Atmospheric Administration
NPP                           National Polar-orbiting Partnership
NTIA                          National Telecommunications and Information Administration


FINAL REPORT NO. OIG-13-003                                                                    31
U.S. DEPARTMENT OF COMMERCE                                       OFFICE OF INSPECTOR GENERAL

NWS                           National Weather Service
OIG                           Office of Inspector General
OMB                           Office of Management and Budget
PSBN                          Public Safety Broadband Network
SDO                           Suspending and Debarring Official
TIC                           Trusted Internet Connection
USPTO                         U.S. Patent and Trademark Office




FINAL REPORT NO. OIG-13-003                                                              32
U.S. DEPARTMENT OF COMMERCE                                           OFFICE OF INSPECTOR GENERAL


Appendix A: Related OIG Publications


This list presents OIG’s past and current work related to FY 2013’s top management
challenges. These products can be viewed at www.oig.doc.gov. If the product contains
information that cannot be released publicly, a redacted version or an abstract will be available
on the website.

Challenge 1: Trade and Export Promotion

   •		 USPTO’s Other Backlog: Past Problems and Risks Ahead for the Board of Patent Appeals (OIG-
       12-032-A, August 10, 2012)

   •		 More Action Needed to Improve Controls in Asset Forfeiture Fund (OIG-12-019-I, February 8,
       2012)

   •		 The Patent Hoteling Program Is Succeeding as a Business Strategy (OIG-12-018-A, February 1,
       2012)

   •		 Follow-up Review of NOAA Fisheries Enforcement Programs and Operations (OIG-12-017-I,
       January 31, 2012)

   •		 Letters to Congress re: Status of NOAA's Implementation of OIG's Asset Forfeiture Fund
       Recommendations (OIG-11-012-M, December 12, 2011)

   •		 Patent End-to-End Planning and Oversight Need to Be Strengthened to Reduce Development
       Risk (OIG-11-033-A, September 29, 2011)

   •		 Status of USPTO Initiatives to Improve Patent Timeliness and Quality (OIG-11-032-I, September
       29, 2011)

Challenge 2: Oversight of Resources and Investment for Long-Term Benefits

   •		 IG’s Testimony on Mismanagement of Funds at the National Weather Service and the Impact on
       the Future of Weather Forecasting (OIG-12-036-T, September 12, 2012)

   •		 Review of NTIA's Oversight of the Booz Allen Hamilton Contract Supporting the Broadband
       Technology Opportunities Program (OIG-12-031-M, August 9, 2012)

   •		 IG’s Testimony on Planning for the 2020 Census: Senate Homeland Security and Governmental
       Affairs Committee (OIG-12-030-T, July 18, 2012)

   •		 NTIA Needs Stronger Monitoring of BTOP Grant Recipients’ Match (OIG-12-029-A, June 18,
       2012)

   •		 IG’s Testimony on Broadband Loans and Grants: House Energy and Commerce Committee
       (OIG-12-026-T, May 16, 2012)




FINAL REPORT NO. OIG-13-003                                                                      33
U.S. DEPARTMENT OF COMMERCE                                           OFFICE OF INSPECTOR GENERAL

   •		 High-Quality Maps and Accurate Addresses Are Needed to Achieve Census 2020 Cost-Savings
       Goals (OIG-12-024-I, May 10, 2012)

   •		 2020 Census Planning: Delays with 2010 Census Research Studies May Adversely Impact the
       2020 Decennial Census (OIG-12-023-I, April 5, 2012)

   •		 OIG-Census Letter to Law Enforcement Professionals Regarding Assaults on Census Workers
       (March 30, 2012)

   •		 FY 2011 Compliance with Improper Payment Requirements (OIG-12-022-1, March 15, 2012)

   •		 Oversight Activities of NIST’s Recovery Act Construction Grant Awards Are Generally 

       Effective but Need Improvements (OIG-12-020-A, February 14, 2012)



   •		 Single Audit Results for the 12-Month Period Ending December 31, 2011 (OIG-12-021-M,
       February 13, 2012)

   •		 Misrepresentations Regarding Project Readiness, Governance Structure Put at Risk the Success
       of the San Francisco Bay Area Wireless Enhanced Broadband (BayWEB) Project
       (OIG-12-016-M, January 10, 2012)

   •		 IG’s Testimony on Stimulus Oversight: House Committee on Science, Space, and Technology
       (OIG-12-012-T, November 30, 2011)

   •		 NTIA Has an Established Foundation to Oversee BTOP Awards, but Better Execution Is
       Needed (OIG-12-013-A, November 17, 2011)

Challenge 3: IT Security

   •   Improvements Are Needed to Strengthen ITA’s Information Technology Security Program
        (OIG-12-037-A, September27, 2012)

   •		 Significant IT Security Program Improvements Are Needed to Adequately Security NTIA’s
       Systems (OIG-12-035-A, September 7, 2012)

   •		 FY 2011 Federal Information Security Management Act Audit: More Work Needed to


       Strengthen IT Security Department-Wide (OIG-12-007-A, November 10, 2011)



   •		 Improvements Are Needed For Effective Web Security Management (OIG-12-002-A, 

       October 21, 2011)



   •		 Patent End-to-End Planning and Oversight Need to Be Strengthened to Reduce Development
       Risk (OIG-11-033-A, September 29, 2011)

   •		 Federal Information Management Act Audit Identified Significant Issues Requiring Management
       Attention (OIG-11-012, November 15, 2010)

   •		 Respondent Data Safeguards in the Decennial Response Integration System (DRIS) (OAE-19888,
       September 24, 2010)


FINAL REPORT NO. OIG-13-003                                                                          34
U.S. DEPARTMENT OF COMMERCE                                             OFFICE OF INSPECTOR GENERAL

   •		 FY 2009 FISMA Assessment of the Environmental Satellite Processing Center (OAE-19730,
       January 11, 2010)

   •		 FY 2009 FISMA Assessment of the Enterprise UNIX Services System (OAE-19729, 

       November 20, 2009)



   •		 FY 2009 FISMA Assessment of the Field Data Collection Automation System (OAE-19728,
       November 20, 2009)

   •		 FY 2009 FISMA Assessment of the Patent Cooperation Treaty Search Recordation System
       (OAE-19731, November 20, 2009)

Challenge 4: Contracts and Acquisitions

   •		 Quarterly Conference Reporting Processes Need Improvement (OIG-13-001-1, October 17,
       2012)

   •		 Oversight Activities of NIST’s Recovery Act Construction Contracts Need Improvement
       (OIG-12-28-A, June 1, 2012)

   •		 NOAA’s Cost-Plus-Award-Fee and Award-Term Processes Need to Support Fees and


       Extensions (OIG-12-027-A, May 18, 2012)



   •		 Further Actions Needed to Enhance Commerce’s Acquisition Human Capital Plan 

       (OIG-12-15-A, December 21, 2011)



   •		 Commerce’s Office of Acquisition Management Must Continue to Improve Its Ongoing
       Oversight of Acquisition Savings Initiatives (OIG-12-001-A, October 6, 2011)

Challenge 5: Satellites

   •		 Audit of the Joint Polar Satellite System: Continuing Progress in Establishing Capabilities,
       Schedules, and Costs Is Needed to Mitigate Data Gaps (OIG-12-038-A, September 27, 2012)

   •		 IG’s Testimony on Need for Continued Innovation in Weather Forecasting and Prediction:
       Senate Committee on Commerce, Science, and Transportation (OIG-12-011-T, November 16,
       2011)

   •		 Audit of the Joint Polar Satellite System: Challenges Must Be Met to Minimize Gaps in Polar
       Environmental Satellite Data (OIG-11-034-A, September 30, 2011)

   •		 Memorandum to the Under Secretary of Commerce for Oceans and Atmosphere and NOAA
       Administrator: NOAA’s Joint Polar Satellite System Audit Observations (OIG-11-029-M, June
       10, 2011)




FINAL REPORT NO. OIG-13-003                                                                           35
U.S. DEPARTMENT OF COMMERCE                                                  OFFICE OF INSPECTOR GENERAL


Appendix B: Comparison Between FY 2012 and
FY 2013 Challenges
                       FY 2013                                                FY 2012
Stimulate economic growth in key industries,            Effectively promote exports, stimulate economic
increase exports, and enhance stewardship of            growth, and create jobs:
marine fisheries:                                       • Effective interagency partnerships
• Growth in manufacturing, intellectual property, and   • Enhancement of Commerce unit operations
  wireless industries                                   • Trade enforcement
• Export promotion and regulation                       • Regulatory review improvement
• Protection and promotion of marine fisheries
Increase oversight of resources entrusted by the        Reduce costs and improve operations to optimize
public and invest for long-term benefits:               resources for a decade of constrained budgets:
• Internal controls and oversight                       • Operational efficiency
• Investment for long-term benefits                     • Oversight of improper payments
• Design changes to contain 2020 decennial costs        •	 Reduction of risks of misuse, abuse, or waste of
                                                           federal grant funds awarded to grantees
                                                        •	 Oversight of the Broadband Technology
                                                           Opportunities Program
                                                        • Application of lessons learned from 2010 decennial
                                                        • Headquarters renovation costs and schedule
Strengthen security and investments in information      Strengthen department-wide information security
technology (IT):                                        to protect critical information systems and data:
• Addressing persistent IT security weaknesses          • Reduce ongoing security weaknesses
• Incident response and recovery capabilities           • Implement security policy
• IT governance for portfolio management
• Oversight of IT investments
Implement framework for acquisition project             Manage acquisition and contract operations more
management and improve contract oversight:              effectively to obtain quality goods and services in a
• Planned framework for acquisition management          manner most beneficial to taxpayers
• Oversight of high-risk contracts                      • Qualified acquisition workforce
• Acquisition workforce maintenance                     • Ethical standards in procurement practices
• Implementation of suspension and debarment            • Use of high-risk contracts and maximizing

  program
                                                 competition
                                                        • Tracking of contract savings
                                                        • Delivery of major IT investments
Reduce risks of cost overruns, schedule delays,         Manage the development and acquisition of
and coverage gaps for NOAA’s satellite programs:        NOAA’s environmental satellite systems to avoid
• JPSS capabilities, schedule, and costs                launch delays and coverage gaps:
• Leadership and governance structure over JPSS         • Avoid near-term polar satellite coverage gaps
• Weather forecasting during JPSS coverage gaps         • Manage polar satellites
• Risks associated with GOES-R development              • Manage geostationary satellites




FINAL REPORT NO. OIG-13-003                                                                                36
U.S. DEPARTMENT OF COMMERCE   OFFICE OF INSPECTOR GENERAL


Appendix C: Management Response to OIG
Draft Report




FINAL REPORT NO. OIG-13-003                          37
